Report No. IE-2009-005    April 30, 2009




           2008 Evaluation of the DoD

           Voting Assistance Program
               DEPARTMENT OF DEFENSE
              OFFICE OF INSPECTOR GENERAL




                     MISSION STATEMENT




      Promote integrity, accountability, and improvement of
Department of Defense personnel, programs and operations to support
       the Department's mission and serve the public interest.




                                                                      D E PA R T M E N T O F D E F E N S E
                                                                                                             To report fraud, waste, mismanagement, and abuse of authority.


                                                                      hot line                               Send written complaints to: Defense Hotline, The Pentagon, Washington, DC 20301-1900
                                                                                                             Phone: 800.424.9098         e-mail: hotline@dodig.mil       www.dodig.mil/hotline
                                                    2008 Evaluation of the DoD Voting Assistance Program
                                                                 Report No. IE-2009-005 April 30, 2009


2008 DoD Voting Assistance Program


What Was Done.
Section 1566, Title 10, United States Code, “Voting assistance; compliance assessments;
assistance,” as amended, requires that the Inspectors General of the Army, the Navy, the Air
Force, and the Marine Corps conduct an annual review of the effectiveness of voting assistance
programs; and an annual review of the compliance with voting assistance programs of that
Service. Upon the completion of their annual review, each Service Inspector General submits to
the DoD Inspector General a report on the results of their review. The statute requires that the
DoD Inspector General submit to Congress a report on the effectiveness during the preceding
calendar year of voting assistance programs; and the level of compliance during the preceding
calendar year with voting assistance programs of each of the Services. To facilitate this
reporting process, the DoD IG established a report template to standardize the format for the
Services’ reports. Therefore, this report consolidates all of those reports and summarizes some
of those reports key facts. The DoD IG did not independently verify or validate the Service IG
Reports. As an added dimension for our review, we also solicited input from the combatant
commands and from the Federal Voting Assistance Program (FVAP) Office.


What Was Identified.
The Service Inspectors General reported that their programs were effective and in compliance
with DoD regulations and public law. The oversight programs of the FVAP Office and the
Services continue to evolve, presenting opportunities to improve the effectiveness and
compliance aspects of the Voting Assistance Program. For example, in 2008, FVAP managers
established a program metrics tool to measure effectiveness and compliance. The data collected
for these metrics serve to describe program activities and sets the baseline for examining the
program going forward.

Furthermore, the results of the Services’ surveys provide the indicators and targets for program
improvement. Service Inspectors General provided detailed Service-wide compliance reporting
in all five compliance focus areas identified in DoD Directive 1000.04, “Federal Voting
Assistance Program (FVAP),” April 14, 2004. The five survey areas include: (1) Personnel
Assignments; (2) Training, (3) Voting Material Distribution; (4) Communication and
Information Network; and (5) Commanders/ Installation Level Involvement. As an additional
cross-check on program management, the Combatant Command Inspectors General reported that
the Services’ voting assistance programs in their areas of operations were effective and
compliant.
We are not making any recommendations in this report.




                                                i
                                              2008 Evaluation of the DoD Voting Assistance Program
                                                           Report No. IE-2009-005 April 30, 2009


Table of Contents


Chapter 1 – Introduction                                                                1

Chapter 2 – Effectiveness of Services’ Voting Programs                                  9

Chapter 3 – Compliance of Services’ Voting Programs                                   11



Appendixes
     A. USD(P&R) 2007 Memorandum                                                      17
     B. Department of the Army Inspector General Report                               19
     C. Department of the Navy Inspector General Report                               24
     D. Department of the Air Force Inspector General Report                          33
     E. Marine Corps Inspector General Report                                         39
     F. Summary of COCOM Self-Assessments                                             53
     G. U.S. Central Command                                                          54
     H. U.S. European Command                                                         58
     I. U.S. Joint Forces Command                                                     61
     J. U.S. Southern Command                                                         64
     K. U.S. Special Operations Command                                               69
     L. U.S. Strategic Command                                                        73
     M. U.S. Transportation Command                                                   76
     N. USD(P&R) Response to the 2007 DoD IG Report                                   80
     O. USD(P&R) Measures of Success for 2008                                         82
     P. 2008 Military Training by FVAP Program Office                                 83
     Q. Scope and Methodology                                                         86
     R. Prior Coverage                                                                87
     S. COCOM Self-Assessment Template                                                89
     T. List of Acronyms                                                              93
     U. Report Distribution                                                           94
                2008 Evaluation of the DoD Voting Assistance Program
                             Report No. IE-2009-005 April 30, 2009




This Page Intentionally Blank
                                                                  Evaluation of the DoD Voting Assistance Program
                                                                          Report No. IE-2009-005 April 30, 2009



                                 Chapter 1—Introduction
Background

        Legislation. Section 1566, Title 10, United States Code, “Voting assistance; compliance
        assessments; assistance,” as amended, specifies the voting assistance roles of the
        Department of Defense Inspector General and that of the Service Inspectors General.
        The statute specifies that the Service Inspectors General shall conduct an annual review
        of the effectiveness and compliance of their voting assistance programs, and upon
        completion of their annual review, submit to the DoD Inspector General a report on the
        results of their review. The statute further specifies that, “Not later than March 31 each
        year, the Inspector General of the Department of Defense shall submit to Congress a
        report on (A) the effectiveness during the preceding calendar year of voting assistance
        programs; and (B) the level of compliance during the preceding calendar year with voting
        assistance programs of each of the Army, Navy, Air Force, and Marine Corps.”

        Department of Defense Policy. The Secretary of Defense is the Executive Agent
        designated by the President for the Uniformed and Overseas Citizens Absentee Voting
        Act (UOCAVA1).2 Policies and instructions for the DoD voting assistance program are
        described in DoD Directive 1000.04, “Federal Voting Assistance Program (FVAP),”
        April 14, 2004 (Certified Current as of April 23, 2007)—hereafter, referred to as the
        Directive. The Directive stipulates that the Under Secretary of Defense for Personnel and
        Readiness (USD [P&R]) administers the FVAP for the Secretary of Defense. The USD
        (P&R) manages the program through the Office of the Federal Voting Assistance
        Program.

        As of March 2009, the FVAP Office is coordinating a revision to the Directive and will
        reissue the publication as DoD Instruction 1000.04. The new Instruction will add the
        procedures outlined in the USD(P&R) memorandum, “Guidance in Implementing Voting
        Assistance Programs,” September 19, 2007, which was addressed to all Military
        Departments (see Appendix A). The memorandum includes the following guidance:

                 States that guidance and direction should be used as a baseline and “may be
                  adjusted to meet specific requirements and cultures within each Service.”
                 Lowers grade requirements for assignment of Voting Assistance Officers (VAO).
                  Provides flexibility to assign “quality individuals with enough authority to get the
                  job done.”
                 Adjusts the ratio requirement for VAOs vs. unit population. Allows flexibility to
                  adjust ratio to ensure coverage.



1
 Title 42, United States Code, Section 1973ff.
2
 Executive Order 12762, “Designation of the Secretary of Defense as the Presidential Designee Under Title 1 of the
Uniformed and Overseas Citizens Absentee Voting Act, June 8, 1988.


                                                        1
                                                                  Evaluation of the DoD Voting Assistance Program
                                                                          Report No. IE-2009-005 April 30, 2009

                   Streamlines delivery of the Federal Post Card Application (FPCA)—provision
                    added to permit electronic distribution of FPCA and receipt verification in lieu of
                    face-to-face contact.
                   Clarifies the use of civilians as Installation VAOs (IVAOs), requesting they be
                    stabilized during the 18-month period from October of the year preceding a
                    general election through March of the year following the general election.

           Service Regulations. Each Service supplements the Directive with Service-specific
           regulations and instructions:

                   Army Regulation 608-20, “Army Voting Assistance Program,” October 28, 2004.

                   Office of the Chief of Naval Operations Instruction 1742.1B, “Navy Voting
                    Assistance Program,” May 15, 2007.

                   Air Force Instruction 36-3107, “Voting Assistance Program,” September 10,
                    2003.

                   Marine Corps Order 1742.1A (with Changes 1-2), “Voter Registration Program,”
                    May 14, 2002.

           Goal of the Federal Voting Assistance Program. The goal of the FVAP is to ensure
           that Service members and their spouses or dependents everywhere, and DoD civilians
           and their eligible dependents residing overseas receive information on absentee voting.

                    The FVAP shall ensure that eligible voters receive . . . information about
                    registration and voting procedures and materials pertaining to scheduled
                    elections, including dates, offices, constitutional amendments, and other
                                      3
                    ballot proposals.
           Service VAOs are required to obtain and disseminate voting information, voting forms,
           registration forms, and absentee ballot requests. VAOs are also required to personally
           assist voters for all elections for Federal offices. Each Service is required to establish and
           maintain a voting assistance Web-site.

           The FVAP Office manages several support activities which include:

                   VAO training program—on-installation and Web-based;

                   A voting assistance guide with State-by-State information;

                   Voting Information News, a monthly publication that summarizes timely
                    information on upcoming elections;


3
    Paragraph 4.2, DoD Directive 1000.04, , “Federal Voting Assistance Program (FVAP),” April 14, 2004


                                                         2
                                                                Evaluation of the DoD Voting Assistance Program
                                                                        Report No. IE-2009-005 April 30, 2009

                Unit VAOs “to-do” list; and

                The FVAP Web-site (www.fvap.gov), which provides voting assistance and
                 information to uniformed absentee voters, their spouses and eligible dependents,
                 and civilian U.S. voters residing overseas.

        The FVAP Office submits a quadrennial report to the President and the Congress after
        each Presidential election and summarizes the effectiveness of assistance programs. The
        Uniformed and Overseas Citizens Absentee Voting Act (UOCAVA) legislates the
        following requirements for the quadrennial report:

           A statistical analysis of voter participation by Service members.

           A statistical analysis of voter participation by nonmilitary personnel overseas.

           A description of State-Federal voting registration and election cooperation.

        The quadrennial report provides an empirical analysis of the effectiveness of the voting
        assistance program as measured by actual voter participation. The most recent report on
        “The Federal Voting Assistance Program” was issued in October 2005, following the
        2004 Presidential Election. A reasonable metric for the effectiveness of the voting
        assistance program is the number of Service personnel who vote in the election compared
        to the general populace. For the 2004 Presidential Election, the overall Uniformed
        Services voting participation rate was 79 percent and the federal civilian overseas rate
        was 80 percent compared to the 64 percent voting rate of the general public. The 64
        percent for the general public as listed in the report was attributed to the U.S. Census
        Bureau.4 The Defense Manpower Data Center (DMDC) will provide the data for the
        report on the 2008 Presidential Election. As of March 10, 2009, the FVAP Program
        Office advised the team that the statistical analyses for the 2008 election were not yet
        available.5

        Voting Assistance Program Process. The VAO ensures that Service members and their
        spouses or dependents everywhere, and voters residing overseas receive information
        about absentee voting, including registration and voting procedures, polling places, dates
        of scheduled elections for Federal offices, and points of contact for additional assistance
        and voting materials—such as absentee ballots.

        The Service IGs are required to review and gauge the voting assistance programs in their
        respective Services and provide a report annually to the DoD IG assessing effectiveness
        and compliance of their VAP. Figure 1 illustrates the major elements of the Services’
        voting assistance programs.



4
  Federal Voting Assistance Program Office, The Federal Voting Assistance Program – Seventeenth Report, October
2005, page 2.
5
  E-mail from Wiedmann, J. Scott, CIV OSD/FVAP to Means, William D., OIG DoD, March 10, 2009, Subject:
RE: Request for FVAP information and artifacts.


                                                      3
                                       Evaluation of the DoD Voting Assistance Program
                                               Report No. IE-2009-005 April 30, 2009



               Figure 1. Voting Assistance Program Elements
                                                                                 .
                                      Provide:
                                         DoD Directive
                                         VAO Training
               USD (P&R)                 Voting Guide
               FVAP Office               FVAP Web-site
                                         Program Oversight


                                      Provide:
Military Services                        Service instructions
    Military Services                    Service Web-sites
         Military Services
              Military Services          Voting Materials
                                         Service-level oversight


                                      Assign VAOs
              Installation &          Monitor VAO performance
            Unit Commanders


                                      Provide:
             Voting Assistance           Voting Information
              Officers (VAO)             Voting Materials
                                         Training and Assistance


           Uniformed Absentee         Register and Vote
           Voters & Dependents


                                      Compile voting results
                   States             Administer Elections




                                  4
                                                      Evaluation of the DoD Voting Assistance Program
                                                              Report No. IE-2009-005 April 30, 2009


Report Overview

     Objective and Scope. The objectives of this Department of Defense (DoD) Voting
     Assistance Program (VAP) evaluation for calendar year 2008 is to (1) consolidate the
     Services’ VAP assessment results into a single DoD-wide report for Congress and (2) to
     report the effectiveness and level of compliance of the Services’ Voting Assistance
     Programs. The DoD IG developed a report template to standardize the Services’ reports.
     This report consolidates their reports and summarizes the results. Chapter 2 describes the
     effectiveness and Chapter 3 describes the level of compliance. The four Service reports
     are at Appendixes B, C, D, and E.

     To establish an additional level of review of the DoD voting assistance program, the
     evaluation team requested comment from the combatant commands (COCOMs). While
     the Services train and equip their forces, force structure is committed on a mission basis
     to COCOMs in their assigned geographical or functional areas of responsibility (AOR).
     In August 2008, the team distributed a Self-Assessment Checklist to COCOM IGs to
     facilitate a review of their respective voting assistance programs under their purview and
     in their areas of responsibility. As an additional cross-check on program management,
     the Combatant Command Inspectors General reported that the Services' voting assistance
     programs in their areas of operations were effective and compliant. A summary of the
     COCOM IG Self-Assessments is included at Appendix F. The individual COCOM IG
     reports are included at Appendices G through M.

Management Comments

     Prior Year Recommendation. DoD IG Report No. IE-2008-002, “2007 Evaluation of
     the Federal Voting Assistance Program in the Department of Defense,” March 31, 2008,
     (evaluation of the 2007 program) recommended that the USD(P&R) and Service IGs
     should develop mutually acceptable metrics and standards for assessing effectiveness and
     compliance of the Services’ and the DoD Voting Assistance Programs. According to
     USD(P&R) response on March 26, 2008 (see Appendix N), “Metrics have been
     developed during meetings between the FVAP office and the Service VAOs and are
     currently in use. We will work to ensure these can reasonably measure effectiveness, are
     mutually acceptable, and are incorporated into Service IG reports.” The data collected
     for these metrics describe program activities and sets the baseline for examining the
     program going forward.




                                              5
                                                            Evaluation of the DoD Voting Assistance Program
                                                                    Report No. IE-2009-005 April 30, 2009




        Federal Voting Assistance Program Office. The FVAP Program office of the
        USD(P&R) provided the following statistical information for the 2008 FVAP program.6

               Metrics reported by the Senior Service Voting Officers as Measures of Success
                are at Appendix O and show 1511 military VAOs trained by the FVAP.

               Locations of installations visited, numbers of training sessions by location, and
                the number of VAOs trained by FVAP (attending the workshops) are at Appendix
                P and show 3220 military VAOs during on-installation workshops.

               The FVAP Program Office introduced the comprehensive Web-site re-design in
                July 2008 offering enhanced content and usability for user preparation of requests
                to register to vote and request an absentee ballot.

               Also in July 2008, the Program Office launched the Voter Registration and Ballot
                Delivery (VRBD) system as an automated version of the Federal Post Card
                Application (FPCA) process. Delayed from the planned January 2008
                implementation date in order to accommodate testing for secure messaging
                compliance, the system was reported to have guided over 21,000 military and
                overseas civilians through form completion on-line.

               The VRBD system supported civilian citizens as well as military members in 425
                local election offices in 11 states using secure servers. The FVAP Program Office
                reported that from July 23 through November 4, 2008, 780 citizens uploaded
                ballot requests and 124 voters downloaded blank ballots.


Results

The Service Inspectors General reported that their programs were effective and in compliance
with DoD regulations and public law. The oversight programs of the FVAP Office and the
Services continue to evolve, presenting opportunities to improve the effectiveness and
compliance aspects of the Voting Assistance Program. For example, in 2008, FVAP managers
established a program metrics tool to measure effectiveness and compliance. The data collected
for these metrics serve to describe program activities and sets the baseline for examining the
program going forward.

Furthermore, the results of the Services’ surveys provide the indicators and targets for program
improvement. Service Inspectors General provided detailed Service-wide compliance reporting
in all five compliance focus areas identified in DoD Directive 1000.04, “Federal Voting
Assistance Program (FVAP),” April 14, 2004. The five survey areas include: (1) Personnel

6
 E-mail from Wiedmann, J. Scott, CIV OSD/FVAP to Means, William D., OIG DoD, March 4, 2009, Subject: RE:
Request for FVAP information and artifacts.


                                                   6
                                                        Evaluation of the DoD Voting Assistance Program
                                                                Report No. IE-2009-005 April 30, 2009

Assignments; (2) Training, (3) Voting Material Distribution; (4) Communication and
Information Network; and (5) Commanders/ Installation Level Involvement. As an additional
cross-check on program management, the Combatant Command Inspectors General reported that
the Services’ voting assistance programs in their areas of operations were effective and
compliant.

Although we did not validate Service data, we observed that, in general, the reported areas in the
Service voting assistance programs improved or remained at a high level of compliance in 2008
compared to 2007. In particular, the Army demonstrated improvement or provided greater
specificity regarding compliance in those areas for which the Army did not demonstrate
compliance in 2007. The Navy reported equivalent or improved performance compared to its
2007 report, while the Air Force and Marine Corps maintained essentially the same levels of
compliance that were reported in 2007.

We are not making any recommendations in this report.




                                                7
                   Evaluation of the DoD Voting Assistance Program
                           Report No. IE-2009-005 April 30, 2009




This Page Intentionally Blank




              8
                                                              Evaluation of the DoD Voting Assistance Program
                                                                      Report No. IE-2009-005 April 30, 2009


       Chapter 2—Effectiveness of Services’ Voting Programs

Summary. In general, the Services’ Inspectors General reported that their voting assistance
programs were effective. The oversight programs of the Office of the Federal Voting Assistance
Program (FVAP) office and Services continue to identify opportunities to improve effectiveness.

     The Service Inspectors General reported that their programs were effective and in
      compliance with DoD regulations and public law. The Services made special efforts to
      ensure deploying and deployed personnel were afforded every opportunity to vote.

     The Army assessed their VAP based on results of inspections at all levels of Army
      operations, which included an assessment process at over 500 battalions and companies. The
      breadth and depth of those reviews, and their findings and recommendations for
      improvement supports their conclusion that the Army has an effective program.

          The US Army has an effective Voting Assistance Program. This assessment is based on
          the results of command and subordinate command IG inspections of 14 major command
          headquarters, 12 installation headquarters, one corps headquarters and select subordinate
          commands, two division headquarters and selected subordinate commands, 85 brigade
          headquarters and select subordinate commands, 261 battalion headquarters and select
          subordinate commands, 269 separate companies/detachments, 68 research and
          development activities, 48 medical/dental/veterinarian command and activity
          headquarters and units, one readiness center headquarters, three separate platoons, and
                              7
          two academy staffs.

     The Navy assessed their VAP based on a Web-based survey of nearly 5,500 sailors, personal
      interviews, and inspections at over 170 units. The Navy concluded that it has a strong
      program and the Service is taking advantage of their history of “away at sea” logistical
      challenges to prepare for deployments and ensure sailors are afforded every opportunity to
      vote.

          The Navy has an effective Voting Assistance Program. This assessment is based on the
          results of three Echelon II Command Inspections, three geographic Area Visits, and 167
          unit level inspections and surveys conducted by Echelon II commands and their
                                                      8
          subordinate units during calendar year 2008.

     The Air Force assessed their VAP based on inspections of nearly 155 unit programs
      throughout all major commands.

          In summary, throughout the AF, the overwhelming majority of wings and installations
          effectively implemented DOD policy, directives, and procedures and have established




7
    U.S. Army IG report at Appendix B
8
    U.S. Navy IG report at Appendix C


                                                     9
                                                             Evaluation of the DoD Voting Assistance Program
                                                                     Report No. IE-2009-005 April 30, 2009

          viable Federal Voting Assistance Programs. Air Force leaders, at all levels, emphasized
                                                                          9
          the importance of each Airman exercising his/her right to vote.

     The Marine Corps assessed their VAP based on inspections of 58 programs at all levels of
      marine operations. Interviews, document reviews, and on-site inspections were conducted to
      determine the effectiveness of the program. The Marine Corps had a straightforward
      standard (Mission Capable or Non-Mission Capable) for the VAP. All units were found to
      be Mission Capable. Marines were afforded every opportunity to exercise their vote.

          The results of our inspections and the results of our Commanding General’s Inspection
          Program (CGIP) verify that the Marine Corps has an effective Voter Assistance Program.
          This assessment is based upon the results of five major command level, 15 installation
                                                10
          level, and 38 unit level inspections.




9
    U.S. Air Force IG report at Appendix D
10
    U.S. Marine Corps IG report at Appendix E


                                                    10
                                                     Evaluation of the DoD Voting Assistance Program
                                                             Report No. IE-2009-005 April 30, 2009


 Chapter 3—Compliance of Services’ Voting Programs
Summary. All four Services reported compliance with DoD Directive 1000.04
requirements. Installation VAOs (IVAOs) and Unit VAOs (UVAOs) have specific duties
and responsibilities under this Directive to ensure voters get voting information and materials
in a timely fashion. There are five focus areas associated with the voting assistance program:

          Personnel Assignments - Assign quality individuals with enough authority as
           VAOs to manage the Voting Program.

          Training - Ensure VAOs are receiving required training to perform VAO duties.

          Material Distribution - Ensure adequate numbers of Standard Form 76 (SF 76)
           are available for military members and their voting–age dependents to register
           and request a ballot.

          Communication and Information Network - Publicize and maintain a visible
           program.

          Commanders/Installation Level Involvement - Ensure there is an increased
           emphasis on the Voting Program and associated requirements.

   Service IGs provided Service-wide responses regarding compliance with these focus
   areas—see the following Tables 1 through 5.




                                            11
                                                            Evaluation of the DoD Voting Assistance Program
                                                                    Report No. IE-2009-005 April 30, 2009

        Personnel Assignments. The Service IG’s reported their programs are compliant. See
        Table 1, “Personnel Assignment.” VAOs were assigned at the appropriate grade and in
        proportion to number of personnel assigned. Note: For all Services, a number of VAOs
        did not meet DoDD 1000.04 requirement for rank/grade. They were, however, in
        compliance with guidance provided in the Undersecretary of Defense for Personnel and
        Readiness Memorandum on “Guidance in Implementing Voting Assistance Programs,”
        September 19, 2007 (see Appendix A). This guidance allows flexibility in grade
        requirements to favor assignment of VAOs who are interested and dedicated.


                                 Table 1. Personnel Assignments

Item Requirement                       Authority     Army        Navy          Air Force          Marine
                                                                                                  Corps

A.1   VAO assigned at the              DODD 1000.04, Yes, 89%;   Yes, 76%;  Yes, 100%       Yes, all 58
      appropriate grade level.         Para 5.2.1.3  100%        100% w/USD w/USD (P&R) Ltr commands
                                                     w/USD       (P&R) Ltr                  inspected
                                                     (P&R) Ltr
A.2   UVAO assigned at level of        DODD 1000.04, Yes, 96% Yes, 100%        Yes, 100%       Yes, all 58
      command.                         Para 5.2.1.4           w/USD (P&R)      w/USD (P&R) Ltr commands
                                                              Ltr                              inspected
A.3   Maximum number of voters         DODD 1000.04, Yes, 88% Yes, for all     Yes, 100%       Yes, all 58
      that can be represented by       Para 5.2.1.4.2         units            w/USD (P&R) Ltr commands
      VAO adhered to.                                         inspected                        inspected
A.4   UVAO of the rank 02/E-7          DODD 1000.04, Yes, 90% Yes, two         Yes, 100%       Yes, all 58
      above designated in writing      Para 5.2.1.4.2         corrected        w/USD (P&R) Ltr commands
      for each unit of 25 or more                             during                           inspected
      permanently assigned                                    inspection
      members.
A.5   Senior Service                   DODD 1000.04, Yes, Brig   Yes; VADM     Yes; in            Yes; NAF-
      Representative at Flag Rank      Para 5.2.1.3  Gen                       compliance, rank   O6/MAJGEN
      appointed.                                                               not provided       (Ret)
A.6   Service Voting Action Officer.   DODD 1000.04, Yes, YA-    No, O-3       Yes, in            Yes, YA-02
      Military person, 04/E8 or        Para 5.2.1.3  02                        compliance, rank
      above, appointed.                                                        not provided
A.7   Commissioned Officer             UOCAVA         Yes, 91% Yes             Yes, 100%          Yes
      authorized to administer         DODD 1000.04,                           w/USD (P&R) Ltr
      oath.                            Para 5.2.1.4.2




                                                    12
                                                            Evaluation of the DoD Voting Assistance Program
                                                                    Report No. IE-2009-005 April 30, 2009

       Training. The Service IG’s reported their programs are compliant. See Table 2,
       “Training.” All Services placed an emphasis on providing information to recruits, basic
       trainees and those deploying and deployed.


                                              Table 2. Training

                                                                                                     Marine
Item   Requirement               Authority          Army           Navy             Air Force
                                                                                                     Corps

B.1    VAOs received             Title 10,          Yes, 91% of    Yes, 95%         Yes, w/minor     Yes
       training.                 Subtitle A, Part   inspected                       exceptions
                                 II, Chapter 80,                                    noted
                                 Section 1566,
                                 Para f(1)
B.2    MAJCOM, installations     DODD               Yes, 87% of    Yes              Yes, w/minor     Yes,
       and UVAO attend           1000.04, Para      inspected                       exceptions       inspected
       FVAP workshop during      5.2.1.15                                           noted
       even numbered years
       with Federal elections.
B.3    Basic training and        DODD               Yes, 99% of    Yes, 30-         Yes, w/minor     Yes,
       command courses           1000.04, Para      inspected      minute boot      exceptions       training at
       emphasize and             5.2.1.14                          camp briefing    noted            all levels
       advertise voting
       assistance programs.
B. 4   Train units preparing     DODD               Yes, 87% of    Yes, Pre-OS      Yes, w/minor     Yes, during
       for deployment.           1000.04, Para      inspected      Movement         exceptions       every pre-
                                 5.2.1.14                          Checklist        noted            deployment
                                                                                                     briefing
B.5    Recruitment offices       DODD               Yes, 100% of   Yes, 83%,        Yes, w/minor     Yes
       personnel informed of     1344.13, Para      inspected      20%              exceptions
       policies and received     5.4.2                             improvement      noted
       training to carry out                                       over 2007
       voter registration
       assistance.
B. 6   Train Service             DODD               Yes, 96% of    Yes, as part     Yes, w/minor     Yes
       members on absentee       1000.04, Para      inspected      of mandatory     exceptions
       registration and voting   5.2.1.14                          command          noted
       procedures during                                           indoctrination
       years of Federal                                            course
       elections.




                                                    13
                                                                Evaluation of the DoD Voting Assistance Program
                                                                        Report No. IE-2009-005 April 30, 2009

Material Distribution. The Service IG’s reported their programs are compliant. See Table 3,
“Material Distribution.” All Services noted challenges in meeting deadlines to provide
information and materials to forward-deployed personnel.

                                           Table 3. Material Distribution

Item   Requirement             Authority          Army             Navy             Air Force        Marine Corps


C.1    UVAOs hand-             DODD               82% by           Yes, 94% (8X     Yes, w/minor     Yes,
       deliver SF76s to        1000.04, Para      deadline;        improvement      exceptions       inspected
       eligible voters by      5.2.1.6.1 &        remaining        over 2007)       noted
       15 January 2008.        5.2.1.5.3          distributed
       Develop a system                           soon
       to ensure in-hand                          thereafter
       delivery.
C.2    National Voter          Title 10,          Yes, 100%        Yes, 100%        Yes, w/minor     No, not in all
       Registration form       Subtitle A, Part   of inspected                      exceptions       cases;
       made available to       II, Chapter 80,                                      noted            identified
       enlistees.              Section 1566,                                                         during
                               Para i(2)                                                             inspection
C.3    Network                 DODD               Yes              Yes, both        Yes, w/minor     Yes,
       established to          1000.04, Para                       electronically   exceptions       inspected
       distribute voter        5.2.1.5.2                           and hard         noted
       information. (SF                                            copy
       186 & Form 76).
C.4    Special day             DODD               Yes, 94%         Yes              Yes, w/minor     Yes
       designated for          1000.04, Para                                        exceptions
       dissemination of        5.2.1.11                                             noted
       voter information
       and material.
C.5    Prospective             DODD               Yes, 100%        Yes              Yes, w/minor     No, not in all
       enlistees provide a     1344.13, Para      of inspected                      exceptions       cases;
       DD Form 2644            5.4.4.1                                              noted            identified
       "Mail Voter                                                                                   during in
       Registration                                                                                  inspection
       Application" and
       DD Form 2645
       "Voter registration
       Information.
C.6    Recruitment offices     DODD               Yes, 100%        Yes              Yes, w/minor     Yes
       transmit registration   1344.13,Para       of inspected                      exceptions
       applications in a       5.4.4.3                                              noted
       timely manner.
C.7    Sufficient voting       DODD               Yes, 96% of      Yes              Yes, w/minor     Yes,
       materials are on-       1000.04, Para      inspected                         exceptions       inspected
       hand.                   5.2.1.7                                              noted




                                                     14
                                                             Evaluation of the DoD Voting Assistance Program
                                                                     Report No. IE-2009-005 April 30, 2009

       Communication and Information Network. The Service IG’s reported their programs
       are compliant. See Table 4, “Communication and Information Network.” The services
       ensured the VAO Program was highly visible and publicized.



                                Table 4. Communication and Information Network

                                                                                                    Marine
Item   Requirement                   Authority       Army           Navy           Air Force
                                                                                                    Corps

D.1    Voting Assistance             DODD            Yes, 98% of    Yes            Yes, w/minor     Yes
       internet homepage is          1000.04 Para    inspected                     exceptions
       maintained that includes      5.2.1.10                                      noted
       names and links to
       VAOs, procedures to
       order voting materials
       and links to other
       Federal & State voting
       websites.
D.2    Designated location on        DODD            Yes, 98% of    Yes,           Yes, w/minor     Yes, 100% of
       base, installation, or ship   1000.04,        inspected      location       exceptions       inspected
       where voting material &       Para 5.2.1.10                  varies by      noted
       assistance is available.                                     command
D.3    Established and               DODD            Yes, 97% of    Yes            Yes, w/minor     Yes
       published a special           1000.04,        inspected                     exceptions
       telephone service, the        Para 5.2.1.12                                 noted
       "Voting Action Line," to
       link UVAOs with SVAOs.
D.4    Provide telephone             DODD            Yes, 91% of    Not            Yes, w/minor     Yes, 97% of
       operators at every            1000.5, Para    inspected      answered       exceptions       inspected
       military installation with    5.2.1.13                                      noted
       names, e-mail addresses
       and telephone number of
       UVAOs and IVAOs.




                                                     15
                                                              Evaluation of the DoD Voting Assistance Program
                                                                      Report No. IE-2009-005 April 30, 2009

       Commanders/Installation Level Involvement. The Service IG’s reported their
       programs are compliant. See Table 5, “Commanders/Installation Level Involvement.”
       Commanders at all levels were attuned to the importance of the program and provided
       support as required.


                              Table 5. Commanders/Installation Level Involvement

                                                                                                     Marine
Item   Requirement                 Authority   Army             Navy                Air Force
                                                                                                     Corps


E.1    MAJCOMS, etc.,              DODD        Yes, 100% of     Yes                 Yes, w/minor     Yes, 100% of
       continually evaluate        1000.04     inspected                            exceptions       inspected
       voting programs.            Para                                             noted
                                   5.2.1.9
E.2    Command-wide                DODD        Yes, 98% of      Yes                 Yes, w/minor     Yes
       awareness &                 1000.04,    inspected                            exceptions
       assistance program          Para                                             noted
       and activities are          5.2.1.11
       developed during
       Armed Forces Voters
       Week.
E.3    Written policies to         DODD        Yes, 91% of      Yes, included in    Yes, w/minor     Yes
       support eligible military   1000.04,    inspected        Navy Voting         exceptions
       members and their           Para                         Instruction         noted
       dependents.                 5.2.1.1

E.4    Installation level          DODD        Yes, 94% of      Yes, in Navy        Yes, w/minor     Yes
       reviews/inspections.        1000.04,    inspected        Voting              exceptions
                                   Para                         Instruction and     noted
                                   5.2.1.8                      self-assessment
                                                                checklists
E.5    VAO's performance is        DODD        Yes, 78% of      Yes                 Yes, w/minor     Yes, 100% of
       documented in the           1000.04,    inspected                            exceptions       inspected
       Evaluation/FITREPs.         Para                                             noted
                                   5.2.1.16




                                                   16
                                Evaluation of the DoD Voting Assistance Program
                                        Report No. IE-2009-005 April 30, 2009



Appendix A - USD(P&R) 2007 Memorandum




                           17
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




18
                                   Evaluation of the DoD Voting Assistance Program
                                           Report No. IE-2009-005 April 30, 2009


Appendix B. Department of the Army Inspector General Report




                              19
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




20
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




21
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




22
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




23
                                    Evaluation of the DoD Voting Assistance Program
                                            Report No. IE-2009-005 April 30, 2009


Appendix C - Department of the Navy Inspector General Report




                               24
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




25
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




26
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




27
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




28
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




29
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




30
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




31
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




32
                                     Evaluation of the DoD Voting Assistance Program
                                             Report No. IE-2009-005 April 30, 2009



Appendix D - Department of the Air Force Inspector General
             Report




                               33
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




34
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




35
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




36
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




37
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




38
                                    Evaluation of the DoD Voting Assistance Program
                                            Report No. IE-2009-005 April 30, 2009



Appendix E - Marine Corps Inspector General Report




                              39
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




40
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




41
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




42
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




43
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




44
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




45
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




46
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




47
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




48
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




49
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




50
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




51
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




52
                                 Evaluation of the DoD Voting Assistance Program
                                         Report No. IE-2009-005 April 30, 2009


Appendix F – Summary of COCOM Self-Assessments




                            53
                                 Evaluation of the DoD Voting Assistance Program
                                         Report No. IE-2009-005 April 30, 2009


Appendix G – United States Central Command (U.S.C.ENTCOM)




                            54
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




55
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




56
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




57
                                Evaluation of the DoD Voting Assistance Program
                                        Report No. IE-2009-005 April 30, 2009


Appendix H – United States European Command (USEUCOM)




                           58
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




59
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




60
                                  Evaluation of the DoD Voting Assistance Program
                                          Report No. IE-2009-005 April 30, 2009


Appendix I – United States Joint Forces Command (USJFCOM)




                             61
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




62
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




63
                                Evaluation of the DoD Voting Assistance Program
                                        Report No. IE-2009-005 April 30, 2009


Appendix J – United States Southern Command (USSOUTHCOM)




                           64
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




65
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




66
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




67
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




68
                                   Evaluation of the DoD Voting Assistance Program
                                           Report No. IE-2009-005 April 30, 2009


Appendix K – United States Special Operations Command
(USSOCOM)




                              69
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




70
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




71
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




72
                                 Evaluation of the DoD Voting Assistance Program
                                         Report No. IE-2009-005 April 30, 2009


Appendix L – United States Strategic Command (USSTRATCOM)




                            73
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




74
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




75
                                   Evaluation of the DoD Voting Assistance Program
                                           Report No. IE-2009-005 April 30, 2009


Appendix M – United States Transportation Command
(USTRANSCOM)




                             76
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




77
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




78
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




79
                                  Evaluation of the DoD Voting Assistance Program
                                          Report No. IE-2009-005 April 30, 2009


Appendix N – USD(P&R) Response to the 2007 DoD IG Report




                             80
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




81
                                                              Evaluation of the DoD Voting Assistance Program
                                                                      Report No. IE-2009-005 April 30, 2009



Appendix O – USD(P&R) Metrics for 200811




11
 Provided by Scott Wiedmann, Deputy Director FVAP by e-mail on March 4, 2009 in response to a request for
FVAP Program Office metrics and included in this report without DoD IG verification or validation.


                                                     82
                                                                   Evaluation of the DoD Voting Assistance Program
                                                                           Report No. IE-2009-005 April 30, 2009


Appendix P – 2008 Military Training by FVAP Program Office 12
                                                                                                           # of
                                                                                            # of
                                                           State                                         Military
 Installation/ Facility / Event              City                           Country       Military
                                                           Code                                           VAOs
                                                                                         Workshops
                                                                                                         Trained

Andersen AFB                       Guam                    GU       United States              1            45
Andrews AFB                        Andrews AFB             MD       United States              1            11
Aviano AB                          Pordenone                        Italy                      1            15
Bahrain Naval Support Activity                                      Bahrain                    1            33
Barksdale AFB                      Bossier City             LA      United States              2            21
Beale AFB                          Sacramento               CA      United States              1            35
Brunswick NAS                      Brunswick               ME       United States              1            12
Camp Bondsteel                     Ferizaj/Urosevac                 Kosovo                     1            45
CENTCOM                            Iraq                             Iraq                       1
Dover AFB                          Dover                    DE      United States              2            45
Edwards AFB                        Rosamond                 CA      United States              1            28
Ft. Belvoir                        Alexandria               VA      United States              1            16
Ft. Benning                        Columbus                 GA      United States              1            79
Ft. Bliss                          El Paso                  TX      United States              2           115
Ft. Bragg                          Fayetteville             NC      United States              1           115
Ft. Carson                         Colorado Springs        CO       United States              1            42
Ft. Drum                           Watertown                NY      United States              1            48
Ft. Gordon                         Augusta                  GA      United States              2            55
Ft. Hood                           Killeen                  TX      United States              1            55
Ft. Huachuca                       Ft. Huachuca             AZ      United States              1            58
Ft. Irwin                          Ft. Irwin                CA      United States              1            47
Ft. Jackson                        Columbia                 SC      United States              2            66
Ft. Leavenworth                    Leavenworth              KS      United States              1            12
Ft. Leonard Wood                                           MO       United States              1            74
Ft. Lewis                          Tacoma                  WA       United States              1            78
Ft. Meade - Kickoff                Ft. Meade               MD       United States              2            63
Ft. Myer                           Arlington                VA      United States              1            15
Ft. Richardson                     Anchorage                AK      United States              1            20
Ft. Rucker                         Ozark                    AL      United States              1            29
Ft. Sam Houston                    San Antonio              TX      United States              2            63


12
  Provided by Scott Wiedmann, Deputy Director FVAP by e-mail on March 4, 2009 and included in this report
without DoD IG verification or validation.


                                                      83
                                                               Evaluation of the DoD Voting Assistance Program
                                                                       Report No. IE-2009-005 April 30, 2009


                                                                                                       # of
                                                                                        # of
                                                       State                                         Military
 Installation/ Facility / Event           City                          Country       Military
                                                       Code                                           VAOs
                                                                                     Workshops
                                                                                                     Trained

Ft. Sill                          Lawton                OK      United States              1            94
Ft. Stewart                       Hinesville            GA      United States              1            46
Ft. Wainwright - +Registration
Drive                             Fairbanks             AK      United States              1            24
Great Lakes NTC                   Great Lakes           IL      United States              1            21
Heidelberg                        Heidelberg                    Germany                    1            77
Hill AFB                          Ogdon                 UT      United States              1            16
HQ Workshops (Rosslyn Plaza
North)                            Arlington             VA      United States              25           72
III MEF/MCB Japan (Camp S.
D. Butler MBC)                    Okinawa                       Japan                      1            35
                                  Kadena, Naha,
Kadena AB                         Okinawa                       Japan                      1            46
Kirtland AFB                      Albuquerque          NM       United States              1            21
Lakenheath RAF                    Suffolk                       England                    1            24
Langley AFB                       Hampton Roads         VA      United States              1            60
Laughlin AFB                      Del Rio               TX      United States              2            29
MacDill                           Tampa                 FL      United States              1            19
Malstrom AFB                      Malstrom              MT      United States              1            20
MARFORRES New Orleans             New Orleans           LA      United States              1            18
Marine Forces Command             Norfolk               VA      United States              1            15
                                  Twentynine
MCAGCC 29 Palms                   Palms                 CA      United States              1            10
MCAS Beaufort                     Beaufort              SC      United States              1            25
MCAS Cherry Point                 Cherry Point          NC      United States              1            23
MCB Camp Lejeune                  Jacksonville          NC      United States              2            68
MCB Hawaii                        Kaneohe               HI      United States              1            30
McChord AFB                       Tacoma               WA       United States              1            35
McConnell AFB                     Witchita              KS      United States              2            24
McGuire AFB                       Trenton               NJ      United States              1            68
Mildenhall RAF                    Suffolk                       England                    1            19
Minot AFB                         Minot                 ND      United States              1            29
Naples NSA                        Naples                        Italy                      1            22
NAS Jacksonville                  Jacksonville          FL      United States              1            52
Naval Station                     Groton                CT      United States              1            19
Naval Station                     Newport               RI      United States              1             8
NS Gulfport                       Gulfport             MS       United States              1            36



                                                  84
                                                                  Evaluation of the DoD Voting Assistance Program
                                                                          Report No. IE-2009-005 April 30, 2009


                                                                                                          # of
                                                                                           # of
                                                          State                                         Military
 Installation/ Facility / Event           City                             Country       Military
                                                          Code                                           VAOs
                                                                                        Workshops
                                                                                                        Trained

NS Norfolk                        Norfolk                  VA      United States              1            43
NS Pearl Harbor                   Honolulu                 HI      United States              1            45
NS San Diego                      San Diego                CA      United States              1            22
NSB Bangor (NS Kitsap)            Bangor                  WA       United States              1            15
Offut AFB                         Bellevue                 NE      United States              1            60
Osan AB                           Osan                             South Korea                1            18
Pensacola NAS                     Pensacola                FL      United States              1            27
Quantico                          Quantico                 VA      United States              1            12
Ramstein AB                       Kaiserstautern                   Germany                    2            85
Schoffield Barracks               Honolulu                 HI      United States              1           100
Scott AFB                         Belleville               IL      United States              1            54
Tyndall                           Panama City              FL      United States              1            34
U.S. Military Academy             West Point               NY      United States              2            35
USAF Academy                      Colorado Springs        CO       United States              1            42
                                  Vilseck-
USAG Grafenwoehr                  Suedlager                        Germany                    1            36
USAG Vicenza (Caserma
Ederle)                           Vicenza                          Italy                      1            28
U.S.C.G Academy                   New London               CT      United States              1            35
Wiesbaden                         Wiesbaden                        Germany                    1            31
Yokusaka Fleet Activities         Yokusaka                         Japan                      1            25
Yongsan Army Garrison             Seoul                            South Korea                1            28
TOTALS                                                                                       118          3220




                                                     85
                                                   Evaluation of the DoD Voting Assistance Program
                                                           Report No. IE-2009-005 April 30, 2009



Appendix Q - Scope and Methodology

    Service Reporting: The John Warner National Defense Authorization Act for fiscal year
    2007, amended section 1566, 10 U.S.C. eliminating the requirement for unannounced
    DoD IG assessments at ten DoD installations. The statute now requires that the
    Inspectors General of the Army, the Navy, the Air Force, and the Marine Corps conduct
    an annual review of the effectiveness of voting assistance programs, and an annual
    review of the compliance with voting assistance programs of their Service. Upon the
    completion of their annual reviews, each Service Inspector General is required to submit
    to the DoD IG a report on the results of such review. The statute requires that the DoD
    IG submit to Congress a report on the effectiveness and the level of compliance during
    the preceding calendar year of the voting assistance programs of each of the Services.
    The DoD IG did not independently verify or validate the Service IG Reports. This report
    consolidates the results of the Service Inspectors Generals evaluations.

    COCOM Input to DoD IG Reporting: For this report, the COCOMs were solicited to
    provide input to the DoD IG based on their assessments of compliance and effectiveness
    within their Commands. The inspection team developed a Self-Assessment template
    (Appendix S) which was provided to the COCOM IGs in for completion in their Self-
    Assessments. In most cases, the COCOM IGs collaborated with the COCOM Voting
    Assistance Officers to complete the Self-Assessment of their Commands. The last two
    pages of each COCOM Self-Assessments, which is the USD(P&R) memorandum
    (Appendix A), have been removed for inclusion in this report. A summary of the
    COCOM IG Self-Assessments is included at Appendix F. The individual COCOM IG
    reports are included at Appendixes G through M.

    USD(P&R) Input to DoD IG Reporting: In the USD(P&R) response to our report on
    the “2007 Evaluation of the Federal Voting Assistance Program in the Department of
    Defense,” the USD(P&R) wrote on March 26, 2008 that mutually acceptable metrics
    “have been developed during meetings between the Federal Voting Assistance Program
    office and the Service Voting Action Officers and are currently in use.” These metrics
    and their values as provided by the Senior Service Voting Officers to the USD(P&R) for
    the 2008 election year are included with this report at Appendix O. They will form the
    basis for comparison in future years.

    The inspection team also requested information concerning training of VAOs. The
    listing of visits locations, training sessions, and VOAs trained is at Appendix P.
    Appendix P, assembled by the FVAP Program office, shows training was presented to
    3220 military VAOs during on-site workshops. The number of VAOs trained by the
    FVAP as reported by the Senior Service Voting Officers reports in Appendix O shows
    1511 military VAOs trained by the FVAP.

    The inspection team also requested information concerning sponsored automated system
    to support the FVAP effort that were initiated or received major upgrades during 2008.



                                           86
                                                      Evaluation of the DoD Voting Assistance Program
                                                              Report No. IE-2009-005 April 30, 2009



Appendix R - Prior Coverage


      During the last 7 years, the Government Accountability Office (GAO), DoD, and the
      Department of State have issued reports on FVAP and overseas absentee voting.
      Unrestricted GAO reports can be accessed over the Internet at www.gao.gov.
      Unrestricted DoD IG reports can be accessed at www.dodig.mil/audit/reports and
      www.dodig.mil/Inspections/IE/Reports.htm.

GAO
      GAO Report No. GAO-07-774, Elections: Action Plans Needed to Fully Address
      Challenges in Electronic Absentee Voting Initiatives for Military and Overseas Citizens

      GAO Report No. GAO-06-1134T, Testimony Before the Committee on Armed Services,
      United States Senate, Elections: DOD Expands Voting Assistance to Military Absentee
      Voters, but Challenges Remain, September 28, 2006.

      GAO Report No. GAO-06-521, “Elections: Absentee Voting Assistance to Military and
      Overseas Citizens Increased for the 2004 General Election, but Challenges Remain,”
      April 2006

      GAO Report No. GAO-01-1026, “Elections: Voting Assistance to Military and Overseas
      Citizens Should Be Improved,” September 28, 2001

DoD
      DoD IG Report No. IE-2008-002, “2007 Evaluation of the Federal Voting Assistance
      Program in the Department of Defense,” March 31, 2008

      DoD IG Report No. IE-2007-004, “Evaluation of the Voting Assistance Program,”
      March 31, 2007

      DoD IG Report No. IE-2006-001, “Evaluation of the Voting Assistance Program,”
      March 31, 2006

      DoD IG Report No. IE-2005-001, “Evaluation of the Voting Assistance Program,”
      March 31, 2005

      Secretary of Defense, “Report on DoD Actions to Support Voting Assistance to Armed
      Forces Outside the U.S.,” December 2004

      DoD IG Report No. D-2004-065, “DoD Implementation of the Voting Assistance
      Program,” March 31, 2004




                                             87
                                                  Evaluation of the DoD Voting Assistance Program
                                                          Report No. IE-2009-005 April 30, 2009

     DoD IG Report No. D-2003-072, “DoD Compliance with the Uniformed and Overseas
     Citizens Absentee Voting Act,” March 31, 2003

Department of State
     United States Department of State Report No. 01-FP-M-045, “Review of Implementation
     of the Federal Voter Assistance Program,” August 2001




                                          88
                                  Evaluation of the DoD Voting Assistance Program
                                          Report No. IE-2009-005 April 30, 2009


Appendix S – COCOM Self-Assessment Template




                            89
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




90
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




91
     Evaluation of the DoD Voting Assistance Program
             Report No. IE-2009-005 April 30, 2009




92
                                               Evaluation of the DoD Voting Assistance Program
                                                       Report No. IE-2009-005 April 30, 2009


Appendix T – List of Acronyms

Acronym      Expansion

AIRS         Automated Inspection Reporting System (USMC)
AOR          Area of Responsibility (COCOMs)
CENTCOM      United States Central Command
COCOM        Combatant Command
DECA         Defense Commissary Agency
DoD IG       Department of Defense Inspector General
EUCOM        United States European Command
FPAC         Federal Post Card Application
FVAP         Federal Voting Assistance Program
FWAB         Federal Write-In Absentee Ballot
GAO          General Accountability Office
IG           Inspector General
IVOA         Installation Voting Assistance Officer
JFCOM        United States Joint Forces Command
SOCOM        United States Special Operations Command
SOUTHCOM     United States Southern Command
TRANSCOM     United States Transportation Command
UOCAVA       Uniformed and Overseas Civilian Absentee Voting Act
USCENTCOM    United States Central Command
USD(P&R)     Undersecretary of Defense for Personnel and Readiness
USEUCOM      United States European Command
USJFCOM      United States Joint Forces Command
USSOCOM      United States Special Operations Command
USSOUTHCOM   United States Southern Command
USTRANSCOM   United States Transportation Command
UVAO         Unit Voting Assistance Officer
VAO          Voting Assistance Officer
VAP          Voting Assistance Program




                                       93
                                                              Evaluation of the DoD Voting Program
                                                            Report No. IE-2009-005 April 30, 2009



Appendix U - Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Personnel and Readiness)
   Director, Federal Voting Assistance Program
Under Secretary of Defense (Comptroller)/Chief Financial Officer
Assistant Secretary of Defense (Legislative Affairs)
Assistant Secretary of Defense (Public Affairs)

Department of the Army
Secretary of the Army
Chief of Staff, U.S. Army
Inspector General, Department of the Army

Department of the Navy
Secretary of the Navy
Chief of Naval Operations
Naval Inspector General
  Deputy Naval Inspector General for Marine Corps Matters

Department of the Air Force
Secretary of the Air Force
Chief of Staff, U.S. Air Force
Inspector General, Department of the Air Force

Combatant Command
Inspector General, Joint Staff

Non-Defense federal Organization
Office of Management and Budget

Congressional Committees
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
Senate Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Defense, Committee on Appropriations




                                                 94
                                                                   Evaluation of the DoD Voting Program
                                                                 Report No. IE-2009-005 April 30, 2009



DOD OIG
Vision

         One professional team strengthening the integrity, efficiency, and effectiveness of the
         Department of Defense.

Mission

         The Office of the Inspector General promotes integrity, accountability, and improvement
         of Department of Defense personnel, programs, and operations to support the
         Department’s mission and to serve the public interest.



DOD OIG INSPECTIONS AND EVALUATIONS
Vision

         We will evolve into the premiere Inspections and Evaluations organization.

Mission

         To provide policy guidance and oversight to the DoD inspections and evaluations
         community, and to conduct objective and independent customer-focused management
         and program assessments that address areas of interest to Congress and the
         Department of Defense.




ADDITIONAL REPORT COPIES

Contact us by phone, fax, or e-mail:
 Inspections and Evaluations Directorate, Deputy Inspector General for Inspections and Policy
 COM: 703.604.9130 (DSN 664-9130)
 FAX: 703.604.9769
 E-MAIL: crystalfocus@dodig.osd.mil
 Electronic version available at: http://www.dodig.mil/Inspections/IE/Reports.htm
                          Evaluation of the DoD Voting Program
                        Report No. IE-2009-005 April 30, 2009




This Page Intentionally Blank
               DEPARTMENT OF DEFENSE
              OFFICE OF INSPECTOR GENERAL




                     MISSION STATEMENT




      Promote integrity, accountability, and improvement of
Department of Defense personnel, programs and operations to support
       the Department's mission and serve the public interest.




                                                                      D E PA R T M E N T O F D E F E N S E
                                                                                                             To report fraud, waste, mismanagement, and abuse of authority.


                                                                      hot line                               Send written complaints to: Defense Hotline, The Pentagon, Washington, DC 20301-1900
                                                                                                             Phone: 800.424.9098         e-mail: hotline@dodig.mil       www.dodig.mil/hotline
